In The
Supreme Court of The United States
RICHARD TODD HAAS

*

vs.
UNITED STATES

*
*

No.

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
The appellant, RICHARD TODD HAAS, by and through his appointed
counsel, William J. Dinkin, respectfully requests leave of this Court to proceed
herein in forma pauperis in accordance with the provisions of 28 U.S.C. §1915 and
Rule 39 of this Court.
The undersigned counsel was previously appointed to represent the appellant
in the proceeding before the United States Court of Appeals for the Fourth Circuit.
The undersigned’s representation was by way of appointment pursuant to the
Criminal Justice Act, 18 U.S.C. §3006A. 1
The petition for a writ of certiorari to the Supreme Court of the United States
accompanies this motion.

Originally known as the Criminal Justice Act of 1964; now titled as Criminal
Justice Act Revision of 1986.

1

1

Date: July 28, 2021

Respectfully submitted,
/s/ William J. Dinkin
William J. Dinkin
WILLIAM J. DINKIN, PLC
101 Shockoe Slip, Suite J
Richmond, VA 23219
(804) 658-5373
bill.dinkin@dinkinlaw.com
Counsel for Petitioner

2

